CERTIFICATE OF COMPLIANCE
No. ____

JANE DOE, minor child who is unborn, by and through
her father and next friend, John Doe,
Petitioner,
v.
MIKE HUNTER, in his official capacity as Oklahoma Attorney General; MARY
FALLIN, in her official capacity as Oklahoma Governor; MATTHEW G.
WHITAKER, in his official capacity as Acting U.S. Attorney General; U.S.
DEPARTMENT OF JUSTICE;
and THE UNITED STATES OF AMERICA,
Respondents
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 8,818 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d). Further, due to the order by this Court
on April 15, 2020, this petition for writ of certiorari follows the format of Rule 33.2,
except that it still complies with the word limit of Rule 33.1.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22, 2020.

/s Kristine L. Brown
KRISTINE L. BROWN
Counsel of Record
8700 E. Jefferson Ave. #371703
Denver, Colorado 80237
P: (302) 515-2721
kristi@kristiburtonbrown.com
Counsel for Petitioner

